e

/■' 'V.

No.
No. 20*5028 & 20^5029_(Cover Tan Cover)

filed
OCT 2 9 2020

Writ of Certiorari (Dahood) & (HPLussy) (2-identicai Judgmei ts^.jgtai.)
From Montana State Supreme Court DA-19*057 & DAcJSSf
Montana Third Judicial District Court Deer Lodge County: DV* 18*37 & DA* 19*0
;

In The SUPREME COURT OF THE UNITED STATES
Petitioner/Appellant Pro Se
RICHARD CHARLES LUSSY, (“RICK”)
No. 20*5028 Now Joined Rule 12, (3.)(4.)
VERSUS
WADE J. DAHOOD, JEFFREY WADE DAHOOD, INDIVIDUALLY,
KNIGHT & DAHOOD LAW FIRM, HENRY PAUMIE LUSSY, LAUNA LYNN ROQUE,
JENAHLEE MURIE BORNFF; MERNA GREEN. ASSESSOR OFFICE MONTANA
DEPARTMENT OF REVENUE; TIM FOX MONTANA ATTORNEY GENERAL, KURT
KRUEGER MONTANA DISTRICT COURT JUDGE, CLERK SUSIE KRUEGER; CHIEF
MONTANA STATE JUSTICE: MIKE McGRATH; JUSTICE DIRK SANDEFUR; JUSTICE
INGRID GUSTAFSON, JUSTICE JAMES A. RICE; ANDRE BURKE DIRECTOR OVER
OFFICE OF PRESDIENT AMERICAN BAR ASSOCIATION TRADE UNION; JOHN MUDD
EXECUTIVE DIRECTOR: MONTANA BAR ASSOCIATION TRADE UNION; BEN
KRAKOWKA DEER LODGE COUNTY ATTORNEY; LISA NESBITT CASE ANALYST,
RESPONDENTS’
JEFFREY ATKINS CASE-MANAGER. ^
AND
Petitioner/Appellant
RICHARD CHARLES LUSSY, (“RICK”)
No. 20*5029 Now Joined Per Rule 12, (3.)(4.)
VERSUS
HENRY PAUMIE LUSSY, LAUNA LYNN ROQUE, JENAHLEE MURIE BORNFF,
MERNA GREEN ASSESSORS OFFICE MONTANA DEPARTMENT OF REVENUE; TIM
FOX MONTANA ATTORNEY GENERAL, WADE J. DAHOOD, JEFFREY WADE
INDIVIDUALLY, KNIGHT & DAHOOD LAW FIRM; KURT KRUEGER MONTANA
DISTRICT COURT JUDGE; CLERK SUSIE KRUEGER; CHIEF MONTANA STATE
JUSTICE: MIKE McGRATH; JUSTICE DIRK SANDEFUR; JUSTICE INGRID
GUSTAFSON, JUSTICE JAMES A. RICE; ANDRE BURKE DIRECTOR OVER OFFICE
OF PRESDIENT AMERICAN BAR ASSOCIATION TRADE UNION; JOHN MUDD
EXECUTIVE DIRECTOR: MONTANA BAR ASSOCIATION TRADE UNION; BEN
KRAKOWKA DEER LODGE COUNTY ATTORNEY; LISA NESBITT CASE ANALYST,
RESPONDENTS’
JEFFREY AT-KINS GASE-MANAGER. flj.APPLICATION TO CHIEF JOHN ROBERTS: PETITION FOR REHEARING
AttorneyIn*Fact, For Petitioner: RICK C. LUSSY Pro Se
RICHARD C. LUSSY, LUSSY & ASSOCIATES (Property Appraisers)

860 Sixth Avenue South, P.O. Box 152 Naples, FL 34106; Phone (239) 263*5413,
E-Mail: ricklussv@vahoo.com
1

Resubmission via Ms. Nesbitt’s November 5, 2020-letter, receipt November 15, 2020 for reply
delivery: Friday-November 20, 2020 to revitalize parental: memory, mind & heart.
i

Rule 44.6 Rehearing: Reverse-Remand 2-Judgments, Amend 3-Near Identical Complaints.
WHY: This court-denied Certiorari: Docket 20-5028.20-5029 “ChiefJustice took no part
in consideration or decision of this petition, /s/ Scott Harris, Clerk” please add 19-86301.
HOW: To-demonstrate intervening circumstances of substantial &/or controlling effect
or to other substantial grounds not previously presented between May 27, 2020 (Docket 1986301) & October 29, 2020 (Docket 20-5028, 20-5029) to-today-the-present-Nov. 17, 2020 is174-day (5.8-month) window-of-opportunityretain: RICK’S verified evidence in live testimony
to remedy gov’t lawyer judges breach of trust-in-bias-&-not-to-throw-out uniform codified
Statute-Constitutional Laws to make more hearsay-precedent against our 50-United States.
WHO: This purpose only: consolidate 3-near identical complaints: Federal 19-86301 &
2-Montana-District Court 20-5028. 20-5029: as outside Intestate Probate DP 18-31 RICK’S BlessedSt. Parents Mother: Dorothy Helen Lussy(DOD 11/5/2015) &Father: Henry Francis Lussy(DOD 3/9/1988).
WHAT: The-174-day (5.8-mo.) window-ofiopportunity to accomplish the above-HOW:
(a)

Evidence itemized: this Addenda’s Exhibit A-8595 & A-8596 is from fraud on the

court & use against Candidate RICK Fla. Property Appraiser in 9-Elections: 1988-92-96-0004-08-12-16-2020. Demonstrate 24/7 sabotage target-stalk-attack-bully badger: tormenting
RICK for facilitating the (1819) Missing 13th Amendment aka Titles of Nobility Amendment.
(b) This fraud-on-the-court-by-respondents corrupt use of tax monies is to manipulate &
falsify public records: block-&-stop RICK’S life these 42-years after Butte Montana CV-78-672

BU proposed construction-cost overruns-completed 60-townhouse apartments with 30%+/- co­
investor: Wade J. Dahood Pro Se Bank Counsel with co-defendant President Bennett. Known
present rulings corrupted by fraud from the original suite in order to succeed, in all
continuing lawsuits which cripples RICK Pro Se litigant right to permanently prevail for his
remaining life now age 70, without a 100-percent jury trial verdict due process redress^ to
impeach for had behavior. False in one thing, false in all doctrine.^ See also: Marshall v.
Holmes, 141 U.S. 589, at 590-596 (1891) a similar situation occurred. The original fraud
corrupted Father Henry Francis & Richard Lussy Plaintiffs: CV-1978-67-BU (destroyed
records) to again & will reopened for free without taint of res judicata a second tier lawyer
malpractice suit after RICK’S Seattle 1st law-firm was sold to inferior Seattle 2nd law-firm.
(c) Inadequate Juris Doctor Law School Training. While underscoring every known
lawyer, judge, magistrate, justice involved: American Bar Association (“ABA”) certified: 3-year
law school offer juris doctor diploma: do not require core course: jury trial experience in a
moot court/mock trial (Pending: Yale & Harvard in Virus lock down). All ABA certified law
schools require no practical doctor experience what-so-ever. Three prospective credible lawyer

Q A 100% jury trial verdict due process redress requires 2-judges, (l-Montana State & 1Federal) to impeach for bad behavior. Require RICK’S written with jury instructions: 2-juror
sworn oaths, 1-group oath & 1-individual juror signature(s) with actual Montana Statutes,
never before allowed in Courts system as statute editing is the custom. With 4-video camera’s
(^-question asker, 1-reply answer, 1-on 2-judges & 1-jury. Source RICK Lussy.
‘[T]here is an old maxim ‘falusu in uno, falsus in omnibus’ (false in one thing, false in all),
which is often much over-emphasized by counsel, though it is recognized by many courts in
their charges to the jury. But this is only primitive psychology, and should be completely
discarded.” John H. Wignore, A Students’ Textbook of the A Law of Evidence 181 (1935).
Blacks Law Dictionary. 10th Edition, (2014) page 720.
3

expert-fact witnesses to testify on this record are: (i) Bert Foer founder of American Anti-trust
Society, (ii) F. Lee Bailey & (iii) Wyoming Lawyer Gerry Spence. All testimony is no-bias-&no-mollycoddling by mentor-teaching gov’t juris doctor lawyer judges against this little
person: RICK of WE THE little pro se PEOPLE.
(d) Wade J. Dahood Pro Se Lawyer love of contingent fee contract continue against
RICK’S Blessed Mother-Fathers work-worn-small-Montana-town-estate: never probated by
Dahood, yet son-Jeffrey Wade-Knight & Dahood Pro Se Law firm respondents etc. etal claim.
(e) Judicial: National Policy of 50-United States is to Amend 3-nearily identical
complaints for “Relieffrom a Judgment or Order re: Federal/Montana Rule Civil P 60(b) (3)|,@
that started against Wade J. Dahood Pro Se forty-two years ago, continue in Florida during
nine county property appraiser elections: stopped Candidate RICK’S life.
WHEN: John Roberts Chief US Justice’s time treasure & talent to review & correct 9th
DCA & Mont. Courts public record policy is to be uniform affecting all 50-states of the Union.
1. civil rule American independent Judiciary, I pray not: independent of existing law:
100-percent jury trial due process redress to impeach bad behavior from fraud on this court.
2i a rehearing for change in the interpretation of the law that obviously occurred after
case was first submitted and was overlooked by judicial panel.

§ Federal-United States & near identical Montana State Rule of Civil Procedure 60(b)(3)
Relief from a judgment or order fraud (whether previously called intrinsic or extrinsic),
misrepresentation, or misconduct is by opposing party (RICK).
@Top down ethical breach of Public Trust in comity with Fla. Stat. 112.324(3) without written
fee contract UCC/Bar Ass’n. No Dahood answer: a.) not waive b.) wrongful-dismissal c.) fact
misrepresentation is extrinsic-intrinsic fraud d.) no legal sufficiency/lack of due process.
4

3~a. the lower court opinions conflict with Rules of Civil/Common Procedure decision of
U.S. Supreme Court, or other court of appeals cited here-&-now are in & conflict is not
:

addressed in opinion, as in the prior 3-U.S. Supreme Court Writ of Certiorari is no opinion. 3:
b. Long-suffering: 42-year inside a 174-day (5.8-mo.) windowfor-15-day answer opportunity.
o 3'C. On August 29, 2020: ongoing target-stalk-attack-bully-badger-torment
examples against RICK from addenda Exhibit A-8596 & A-8596 is (i) a six-inch nail shot into
car tire while driving ($88.95 & $107 tire replacement); (ii) follow up by person without a
business card, at gas station guaranteed RICK further car tire air losses, after (iii) in Miami
Florida: attached Exhibit A-8571 sex solicitation followed by a physical threat with (iv)
unrelenting-non-stop-phone calls from women refusing to talk & refuse to stop calling RICK
with no message.
3-d. This is to demonstrate respondent’s registered lobbyist in-free-public court-pattern
of bad behavior, hired unregistered lobbyist international green machine Mafia: Affiliated
Business Arrangement (“ABA”) acting unfair & to the detriment of RICK: Mother-Father
memory, mind & heart continue forty-two years. 3~e. As U.S. Justice Steven Breyerj^] said-inwords-relevant-to-fraud-precedent: bad-direct-case-study-comparisons’: “unlessit (precedent)
violate some rule ofcivilprocedure throw it (the precedent) out”so to: Reverse-Remand, ReliefJudgment/Order per RICK’S: petition allowing a competent lawyer to plead-please any trial
judge with three amended complaints now joined parties, now complete with this appeal.
November 17, 2020 by
_____ RICHARD C. LUSSY, Attorney-In-Fact Pro Se,
860 Sixth Avenue S. P.O. Be3Tt52, Naples, FL 34106 E-Mail: ricklussy@yahoo.com
§ “...if it violates some rule of civil procedure other than that, it will be thrown out.”
Quote by U.S. Justice of Supreme Court Steven Breyer. Lines 13-15, page 10, October 2,2017;
Epic Systems Corp v. Jacob Lewis, No. 16-285, Ernst & Young LLP. Et al., v Stephen Morris,
No. 16-300 and National Labor Relations Board v. Murphy Oil USA, Inc., et al. No. 16-307,
Supreme Court of United States, www.hrccourtreporters.com.
5

I

Attached evidence (4+4-page) for Cases-20-5028 & 20-5029 & (2+4-pages) for Case-19-8630:
With Exhibit A-8587 (Krueger Clerk), Exhibit A-8571 (Miami Sex solicitation-threat)
Exhibit A-8595 & A-8596 follows: Attachment,-^ Exhibit A-8595 (Independent of Mother-Dad
DP 18-31 Intestate Probate) Abbreviated A thru Z Alphabet 26-Government Corrupt Intrinsic
frauds with argument to Amend 3-Complaints pursuant “Relieffrom a Judgement or Order•'
Federal/Montana Rule Civil P 60(b)(3)” [A] Respondents sabotage RICK ongoing-24/7
telephone-tap, [B] physicakcomings-and-goings, [C] computer-word-number-changes-file
deletions; [D] two-complete-computer-replacements [E] not-random-as-by-mafia-paid-byrespondent-registered-lobbyists-lawyer-dues-from-American Bar Association to unregistered
lobbyists^ Affiliated Business Arrangement (“ABA”) Miami-Florida-noted-Exhibit A-8571. [F]
Another malicious 6-inch nail in left-rear car tire: August 29, 2020 required a 2nd spare
$107+$88.95 followed by nameless person without a business card at Racetrack gas station
that RICK will be suffering further air pressure in tire losses; [G] unrelenting-non-stop live
women telephone calls refuse to talk & refuse to stop calling; [H] Respondent Wade J. Dahood
Pro Se contingent fee Intestate Probate monies as paid continue at issue; [I] Fake-false-sworn
Loyalty Oaths at issue with government employees/judges, to secure pensions for life: & job
security lawyer-officers-of-court: Ministerial^ Oath@,§,§ of Office of Actual Agency^ in FactQ
(“MOOFAAF”) for [J] (1819) Missing 13th Amendment also known as Titles of Nobility Amendment to
[K] enforce Montana Code Annotated (“MCA”) 25-7-103 When Issues ofFact are to be decided bv
jury_verddct[Lj As from RICK’S 42-year past CV-78-67-BU against Wade J. Dahood
knowingly presents rulings corrupted by fraud from the original suite in order to succeed, in
all continuing lawsuits which cripples RICK Pro Se litigant right to permanently prevail for
§ Ministerial adj. (16th Century) involving obedience instead of discretion... Black’s Law
Dictionary 10th Edition (2014) page 1146.
^ Loyalty Oath 5 USC § 332 “Officer affidavit; no consideration paid for appointment...
p Loyalty Oath 5 USC § 3331 of office. An individual, except the President, elected or
appointed to an office of honor or profit in the civil service or uninformed services, shall take
the following oath: “I, ... .
@ Montana State Constitution Article III, § 3 Oath Of Office Article II, § 16 ...& judicial
officers ... upon duties of their offices: ... ."
@ Actual Agency An agency in which the agent is in fact employed by a principal. ... Blacks
Law Dictionary 8th Edition (2004) page 67. (Principal: fee simple R VT’s- We theprosePeople)
Agency in fact. An agency created voluntarily, as by a contract. *Agency in fact is
distinguishable from an agency relationship created by law, such as agency by estoppel. ...
Blacks Law Dictionary 8th Edition (2004) page 67.
U.S. Constitution Amendment VII [Common Law Suits - Jury Trial (1791)1 In Suits at
common law, ... and no fact tried by a jury, ... than according to rules of common law.
@ Constitution of Montana - Article II § 26. Trial byjury... Right of trial by jury is secured to
all & shall remain inviolate ... all civil actions, two-thirds of the jury... as if all concurred.
6
)>

■

his remaining life. See Marshall v. Holmes, 141 U.S. 589, at 590-596 (1891) a similar situation
occurred. The original fraud corrupted of 1978-67-BU (destroyed records) can be reopened for
free without taint of res judicata. [M] Respondent Merna Green’s defamation-&-refuse-3property-tax-appeal-forms. [N] Merna Green’s $90,001.30 (DV-18-38) Default; [O] Merna
Green’s $89,828.56 Default (19-8630) [P] Presiding Judge Kruger’s refusal to answer pre­
jurisdiction (to self-recuse) questions in both DV-18-37/DV-18-38). [Q] Court’s refusal No Lien
For Claim Not Due (MCA 71-3-103) call it a “lien” recorded as “First Lien Notice of Lien Claim
By Special General Factor to 75%, from 25% Stakeholder” Exhibit A-8531 (2-page) “First Lien
Notice of Lien By Primogeniture Abolished” Exhibit A-85301) Lien Terminates” [R] & Notice
of Right To Claim Lien (MCA 71-3-532) call it a “lien”; [S] To be corrected: MCA 15-8-111
statute 100% market (willing seller) property tax assessment (unwilling seller); [T] Clerk
Krueger’s missing Amended 66-page Amended RICK’S Complaint; [U] Judge Kruger refuse to
file RICK’S pleadings for [R & S] after approval in recorded transcript. [V] Judge Kreger
steam-roller same day notice for Attorney Fees-hand filed motion without prior notice to
RICK by Rules of Procedure. [W] Judge Kreger mollycoddling son Jeffrey Dahood entertaining
his argument with no “lien” citation in court filed evidence. [XI Given $70+/- attorney fee
order without written attorney fee contract in violation to Uniform Commercial Code 2-201 &
Montana Bar Association Fee Regulations. [Y] Dahood Respondent refusal to restate or
produce evidence of contingent fee contract for signatures Exhibit A-8306 (“Full Release of
Recipients In Connection With The Dorothy Lussy Revocable Living Trust”) after respondents
destroyed Mother’s Revocable Living Trust. Plus no one had Mother’s Power of Attorney with
Durable Provision, and no-one was pre-appointed estate administrator make this a intestate
probate. [Z] And Exhibit A-8483 “Indenture-agreement”for mother’s life estate to Henry
Paumie Lussy was only to live in basement of 1818 Tammany Street. A Quitclaim Deed is
conspicuous: Quitclaim Deed so Mother could allow Henry Paumie Lussy to live in basement
& not to allow him to take her homestead away from her. An indenture-agreement is not a
conspicuous deed of ownership continue at issue.
Attachment, ^Exhibit A'8596: (Independent of Mother-Dad DP 18-31 Intestate Probate)
Extrinsic #31 Fraud Fact collateral issues referenced as Guide Rules (“GR”) i to vii below(Respondent Jeffrey Wade Dahood & father Wade J. Dahood refused to file Mothers DP 18-31FI (Filing Intestate) while working for Respondent Henry Paumie Lussy claim all himself & 2daughters).
Guide-Rule-Q (GR-Q) Intrinsic fraud” is subject to outside lawsuit” DP 18-31 Intestate Probate.
“Guide-Rule-i” Extrinsic Fraud often involves fraud on the court. “Guide-Rule-ii” It
deprives one of opportunity to be heard or is not involved in the actual issues, “Guide-Rule-iii”
include destroying evidence, “Guide-Rule-iv” or misleading an ignorant person (RICK) about
the right to sue. “Guide-RuleV’ Involves collateral circumstances “fabrication of evidence by
attorney.” “Guide-Rule-vi” “preventing another party’s witness from appearing.” Guide-Rule7

vii substantial history of misbehavior. Review of fraud as extrinsic^ to reverse & remand to
amend 3-subject-complaints.
#l‘GR-ii) Henry Paumie Lussy (“HPL”) respondent voice mail to RICK said not to come
to Mom’s funeral. #2GR-ii) Before funeral HPL told RICK to call anytime. #3'GR‘ii) After
funeral HPL disconnected phone, changed E-mail RICK is unable to call. #4'GR-ii) HPL refused
Certified-return receipt US Mail meeting 1/3/2016 under Washoe Theatre marquee. #5-GR-ii)
RICK-notified HPL & 2-daughters: JMB, LLR US Certified return receipt for estate financial
inventory & to return Mothers jewelry/clothes to share with 2-other-grand children: Janna &
Sara. Meeting under Washoe Theatre marquee 1/3/2016 at 1853 hours, Exhibit-8528 (l of 2) per
Police Standby report. #6-GR~ii) No show. #7~GR-i) Jeffrey Dahood Pro Se before US Magistrate
JC Lynch on 4/6/18 claimed Estate ofDorothy Helen Lussy Living TYust was already probated
by his Father Wade J. Dahood Pro Se in Missoula County before Anaconda-Deer-Lodge*CountyJudge-RawDavton. #8~GR‘i) ■) Judge Dayton-transcript: 6/6/18 said he did not probate. #9-GRi) Deer-Lodge-County-Clerk-Krueger said no Probate was ever filed (Exhibit A-8544) as Mother
resided in Deer-Lodge-County-Montana. #10~GR-ii) Jeffrey Wade Dahood Pro Se did-not-give
RICK Probate Docket Number within 10-days of Judge Lynch’s Order. #ll~GR-i) Proofiofexistence-of-Living-Trust Re. QUITCLAIM DEED: “Mother release & quitclaim to self as
trustee of The Dorothy Lussy Revocable Living Trust” in 19-8630. #12~GR'i) Wade J. Dahood
aid, abet & advise Henry Paumie Lussy refused filing Mothers Intestate Probate after they
destroyed mothers LIVING REVOCABLE LIVING TRUST: said-Living-Trust “died when she
died” so Wade J. Dahood could litigate Henry Paumie Lussy primogeniture.^ Not give 25%
share-to-each. #13~GR-y) Wade J. Dahood Pro Se on 11/9/2015 fabricated evidence Exhibit A8306, page 65 of 82, Document #8 Case 19-18360 “Full-Release-of-recipientsLn-ConnectionWith-The-Dorothv-Lussy-Revocable-Living-Trust” in his Law Office. #14-GR'ii) Wade J.
Dahood advised ignorant RICK “your Mothers living will died when she died. ” #15-GR‘ii)
Proof in file: prevarication Wade J. Dahood Pro Se; “Upon the death of the settlor, the trust
shall become irrevocable.” (last sentence) thus becoming Mother’s “Last Will & Testament.”
#16-OR-iii) Wade J. Dahood/Henry Paumie Lussy destroyed mothers living will. #17-GR-vii)
Wade J. Dahood sour grapes of benefit his bad behavior: destruction of CV-78-67-BU@,0
after RICK’S father & self were spent out of court 40-years-ago by Dahood. #18~GR‘i) Both
0 Review will not be granted unless the fraud was extrinsic..... "Per 32-page Hazel-Atlas
Glass Co. v Hartford-Empire Co. 322 U.S. 238 (1944).
0 Primogeniture (15c) 1. ... 2. Common-law right firstborn son inherit ancestor’s estate,
exclude younger siblings. Black Law Dictionary 10th Ed pl384.
^ CV 78~67~BU caption Henry F. Lussy & Richard C. Lussy vs. Francis R. Bennett; Knight,
Dahood, Mackay and Mclean, as partnership composed of Wade J. Dahood, Conde F. MacKay
and David J. McLean; and David J. Mclean as an individual Defendants.
jj| CV 78-67-BU case record destroyed: page 39 of 82 Doc. 8: CV-17-79-BMM-JCL Clerk
United States District court For The District of Montana, Clerk of Court, Feb. 18. 2015.
8

Dahood’s of American Bar Association (“ABA”) (attached Exhibit A-8588) certified three-year
law schools 100-percent exclude: moot court/mock trial core courses for jury trial experience to
obtain this juris doctor diploma. #19~GR~i) ABA governing certification acts hke a cartel^ by
offering a juris doctor diploma with no doctors’ experience what-so-ever.” #20'GR‘i) ABA’s
Affiliated Business Arrangement (“ABA”) franchise license: 100-percent market share, no
competition, no consumer freedom of choice, express omissions, 100-percent concealment,
insider trading with self-administered civil-tort precedent to permanently block & stop RICK
Pro Se Non-Lawyer in upcoming 2024 election after: 1988-thru-2020 Florida County Property
Appraiser Elections. #21~GR~i) Independent judiciary, independent of existing law: use secret
surveillance warrants (“SSW”) for job security & mollycoddling government lawyers that arrive
late to work & leave early while taking Friday &/or XA day off. #22~GR~i) In the face: RICK
has/continues 24/7 sabotage, physical comings and goings! targeted, stalked, attacked, bullied
badgered & tormented so to block-stop him. #23'GR'i) Secret surveillance warrants keep
corruption ad nausea. #24~GR~i) Collateral 3-property tax appeals denied by Merna Green in
Assessors office by refusing to provide-RICK-property tax appeal forms (HQ-Helena say could
get only from local county office). #25~GR~i) Merna Green’s repetition of libel per se insulted
RICK on telephone in-deep-rub-of co-investor: Wade J. Dahood 30%+/-with RICK in
Townhouse LTD 60-unit apartment under-construction/then-built/completed. #26-GR~i)
Similar -exploitation tactics by government employee lawyer judges destroyed CV-78-67-BUcourt-records. #27-GR~i) Montana assessment statute revision MCA 15-8-111 challenge
merged in appeal) with (19*8630) US Mail no answer by Montana State Attorney General Tim
Fox from 7/13/18 & 4/30/18 certified return receipt US mail. #28~GR~i) Clerk Susie Krueger
did-not-file-record RICK’S 2nd Amended 66-page Answer & Counterclaim Complaint Third
Party Adding Indispensable parties. #29'GR~i) JC Lynch (retired) US Magistrates not-goodbehavior. #30'GR'i) The lawyered judiciary policy is not-to-enforce all RICK’S plead law in 9elections, #31 GR~i) Universal ABA gov’t lawyer judge not-good behavior pohcy is to voidvitiate-vacate RICK’S petitions to Amend complaints. Request-to-pay-independent-objectivecompetent Lawyer to assist 3-pleadings: to satisfy any presiding judge. Concurrent to reverseremand: Set Aside (Fed./Montana Rule 60(b)(3)) two identical $74,000 Judgment bias due to
extrinsic frauds would allow “Issues ofFact to be decided bv jury verdict (“MCA”) 25-7-103.”
Summary: As plead 17-extrinistic frauds on the court, 9-extrinistic frauds depriving
RICK of opportunity to be heard, 1-extrinistic fraud destroying evidence, 1-extrinistic fraud
misleading an ignorant person (RICK) about right to sue! 1-extrinistic fraud fabrication of
evidence by an attorney & 2- extrinsic frauds by-same attorneywith-historyof-bad-behavior.
As lawyer-officers-of-the court use uncompliant: “non-fraud-civil-tort-precedents” as-these arebad comparisons to attempt a “Jurisdictional Exception” one cannot escape the-public purpose.

@ Univ. Chicago law Henderson assessment: “American Bar Ass’ operates state-approved
carterA tlan tic. “Gilded future of top 10%-& end of opportunity for everyone else” 6/2018 p56.
9

